                                                            UniL d State D partmenl of Slale
                                                            and the Broadca ting B ard of Go           mars

                                                            Offu:e of Inspe tor General

                                                                 OCT 26 2012


     MEMORANDUM

     TO:           os - Mr. Eric Boswell
                   FSI - Ms. Ruth Whiteside

     FROM:         OIG - Harold W. Geisel   ~/).J?
     SUBJECT:      Review of Oversight and Management of Security Programs and
                   Operations (ISP-I-13-02)


             The Office of Inspector General (OIG) conducted 24 inspections over the past 2 years
     and found that the security programs are generally well managed. OIG recently analyzed
     instances of problematic performance by regional security officers (RSO) to determine whether
     deputy chiefs of mission (OCM) were adequately managing and supervising RSOs. OIG
     identified seven inspection reports from 2010-2012 that highlighted problematic RSO
     performance. The reasons behind substandard RSO performance varied, and in some cases RSOs
     were poorly prepared for their positions. But all seven reports showed that DCMs and principal
     officers did not understand the responsibilities of RSOs. In addition, lack of familiarity with
     security programs hampered the ability of OCMs or principal officers to effectively lead and
     supervise RSOs and to properly evaluate their performance.
(b) (5)




                                                    I
                                 SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED

(b) (5)



            To better prepare outbound RSOs and assistant RSOs, OIG has worked with the Bureau
   of Diplomatic Security training center to strengthen the RSO curriculum's basic and in-service
   courses by providing a block of instruction on what security inspectors look for during
   inspections. OIG inspectors provide to students specific examples of common recommendations
   on management, leadership, and mentoring issues, discuss specific inspection reports, and
   provide links to unclassified reports. The inspectors also encourage students to contact OIG prior
   to their departure for access to their post's most recent classified annex report.

           The Depat1ment has recognized the need to improve RSO management skills and
   recently mandated leadership training for all of its supervisors and managers.' The Bureau of
   Diplomatic Security conducts its own assessment of security operations via the Post Security
   Program Review, an essential component of the bureau's management oversight of RSOs.
   Although DCMs are routinely briefed by the Bureau of Diplomatic Security on the results of
   these reviews, OIG security inspectors found that some DCMs still do not have sufficient
   knowledge of the scope ofRSO programs to properly assess performance. OIG also determined
   that neither high-scoring Post Security Program Reviews nor frequency of meetings between the
   RSO and DCM guaranteed successful performance by RSOs.

           OIG reviewed the Foreign Service Institute's training curriculum for outbound DCMs
   and principal officers and determined that the 3-hour block of instruction provided by the Bureau
   of Diplomatic Security does not provide sufficient substantive information on RSO programs nor
   measures to properly evaluate performance. The Bureau of Diplomatic Security instruction
   focuses on visits to the bureau's command center, the role of the RSO as the senior law
   enforcement representative of the law enforcement working group, and briefings about security
   conditions in specific countries. It does not provide DCMs with a substantive explanation of
   RSO duties that DCMs are required to oversee. Reviewing the Post Security Program Review list
   of duties, for example, would benefit DCMs and principal officers who are not familiar with the
   RSO portfolio. Enhancing the training to include the full range of programmatic security
   responsibilities of an RSO will help posts identify and address performance concerns before they
   become vulnerabilities.

   Recommendation 1: The Foreign Service Institute, in coordination with the Bureau of
   Diplomatic Security, should provide an increased block of time to Diplomatic Securi ty to ensure
   a comprehensive block of instruction for the deputy chief of mission and principal officer course
   that thoroughly describes the program responsibilities of a regional security officer as well as
   measures to evaluate performance. (Action: FSI, in coordination with OS)

           You should advise us on actions taken or planned on the recommendations within 30
   days of the date of this memorandum. Actions taken or planned are subject to OIG followup and
   repo11ing.



   I   Assistant Secretary'S Statement in the Bureau of Diplomatic Security's FY 2014 Bureau Resource Request, p. I.



                                                                   2
                                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


        I would be happy to meet with you to discuss this matter further, or your staff may
contact (b) (6)          Assistant Inspector General for Inspections, by email at
(b) (6)   @state.g v or by telephone on 202-663-(b) (6)


Enclosures:
       Compliance Sheet
       OIG Resolution Procedures




                                                3
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                 COMPLIANCE INFORMATION SHEET AND INSTRUCTIONS
                          FOR OIG INSPECTION REPORTS

                                         Compliance Contacts:
(b) (6)




    Office oflnspections, Office oflnspector General , U.S. Department of State, SA-39, (b) (6)

    Response Due Date: 30 days from receipt of thi . c-transmittal

    Below is a list of the reports and recommendations assigned to action and coordinating entities.
    Instructions on how to submit compliance updates are provided on the following pages.

    PRODUCT NAME: REVIEW OF OVERSIGHT AND MANAGEMENT OF SECURITY
    PROGRAMS AND OPERATIONS, ISP-I-13-02


    Action Entity:                               Recommendation(s):
    FSI                                          1



    Coordinating Entity:                         Recommendation(s):
    DS                                           1




                                              1
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                     Compliance Instructions for OIG Inspection Reports

Action Entities

 I. Action entities should, via a record e-mail, list each recommendation by number and text
verbatim along with a detailed discussion indicating agreement or disagreement with the
recommended action for each recommendation within 30 days from the receipt of this e-
transmi ttal of the report.

       a. The record e-mail should indicate the appropriate clearances.
       b. The ACTION line should be addressed to the ISP compliance contacts on page one-
          the assigned anal yst and the supervisory analyst.
       c. The SUBJECT line should include the report title and report number.
       d. The record e-mail must be tagged ASIG, and at a minimum should be captioned
          sensitive or with the overall highest classification of the applicable text or
          recommendations issued in the report.
       e. Action entities are reminded to properly portion mark paragraphs in classified record
          e-mails.

2. For agreement, include corrective actions taken or planned, and actual or target dates for
completion. For disagreement, action entities must include reasons for disagreement, and any
alternative proposals for corrective action.

3. Action entities should also indicate in the response that they have sought and received the
concurrence of the assigned coordinating entities.

4. If questioned or unsupported costs are identified, state the amount that is determined to be
disallowed and the plan to collect the disallowed funds. If funds put to better use are identified,
then state the amount that can be put to better use (if these amounts differ from OIG's, state the
reason).

5. Implementation of informal recommendations is expected, however, a written response is not
required.

Coordinating Entities

1. Coordinating entities are not required to initiate action on recommendations. Coordinating
entities are to be consulted by the assigned action entity for concurrence on a proposed action to
implement the recommendation.

2. However, in the event that a coordinating entity disagrees with an action entity's proposed
plan of action, the coordinating entity is encourage, but not obliged, to submit a response to OIG
for consideration in OIG's analysis on whether the cited action meets the intent of the
recommendation.


                                           2
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



OIG Analysis of Response

1. If OIG concurs with a response to a recommendation, it will note, in the analysis
correspondence, that it concurs with the action entity's management decision. And, OIG will
indicate whether the recommendation is closed for acceptable implementation or indicate its
status as resolved/open if action is still pending and assign a follow-on suspense for a
compliance update. Implementation measures will be tracked until final action is accomplished
and the recommendation is closed.

2. IfOIG does not concur with the action office's proposed corrective action, or if the action
office fails to respond to a recommendation or rejects it, OIG will identify the recommendation
as unresolved. OIG will attempt to resolve the disagreement at the action office level. However,
if OIG determines that an impasse has been reached, it will refer the matter for adjudication as
outlined in 1 FAM 056.1,1 FAM 053.2-2, and 1 FAM 056.2-1(1).

3. In accordance with the Inspector General Act of 1978, as amended, OIG is required to report
to Congress semiarumally on April 1 and October 1 of each year, a summary of each OIG report
issued for which no management decision was made during the previous 6-month period. Heads
of agencies are required to report to Congress on significant recommendations from previous
OIG reports where final action has not been taken for more than one year from the date of
management decision, together with an explanation of delays.




                                               3
                             SENSITIVE BUT UNCLASSIFIED
